                                                          IG-01-034




AUDIT
                             CONTROLS OVER THE USE OF PLASTIC
REPORT                           FILMS, FOAMS, AND ADHESIVE
                           TAPES IN AND AROUND THE SPACE SHUTTLE
                                      ORBITER VEHICLES

                                        August 31, 2001




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Acting Assistant Inspector General for
Audits at (202) 358-1232 or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Acting Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

      Acting Assistant Inspector General for Audits
      Code W
      NASA Headquarters
      Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.


Acronyms

ESD             Electrostatic Discharge
GSOP            Ground Safety Operating Procedures
M&P             Materials and Processes
MAPTIS          Materials and Processes Technical Information System
NSTS            NASA Space Transportation System
OIG             Office of Inspector General
PFA             Plastic Film, Foam, and Adhesive Tape
SFOC            Space Flight Operations Contract
USA             United Space Alliance
W                                                                                   August 31, 2001


TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Controls Over the Use of Plastic Films, Foams, and Adhesive
                  Tapes In and Around the Space Shuttle Orbiter Vehicles
                  Report Number IG-01-034


The NASA Office of Inspector General (OIG) is performing an audit of the United Space
Alliance’s (USA’s) safety procedures under NASA’s Space Flight Operations Contract (SFOC).1
As part of the audit, we reviewed USA’s controls over the use of plastic films, foams, and adhesive
tapes (PFA’s) used in and around 2 the orbiter vehicles and other segments of the Space Shuttle
such as the solid rocket boosters and main engines. As previously reported to you in Safety Alert
01-01, dated May 22, 2001, we found that USA was routinely using in and around the Space
Shuttle orbiter vehicles, PFA’s that had no record of being tested to ensure that the PFA’s met
NASA standards for flammability resistance, electrostatic discharge (ESD) rate, or compatibility
with rocket fuel. In addition, neither the John F. Kennedy Space Center (Kennedy) nor USA
safety personnel had approved the use of these materials, thereby creating a potential safety hazard
to personnel, the orbiter vehicles, and other flight hardware and equipment.




1
  NASA awarded the SFOC to USA of Houston, Texas, on September 26, 1996. USA is a joint venture of The
Boeing Company and Lockheed Martin to conduct the SFOC and is the prime contractor for NASA’s Space
Shuttle Program. USA performs work for SFOC under contract number NAS9-20000. The total contract cost plus
fee is estimated at $8.6 billion. The contract is a cost-plus-incentive-fee/award-fee type contract and has a
period-of-performance of October 1, 1996, through September 30, 2002. The contract includes two, 2-year option
periods, which potentially extend the period-of-performance through September 30, 2006.
2
  Revision A of NASA Space Transportation System 08242, “Limitations for Non-flight Materials and Equipment
Used In and Around the Space Shuttle Orbiter Vehicles,” (NSTS 08242) defines “in and around” as “in contact
with the orbiter's exterior surfaces or within approximately three feet of the orbiter's exterior mold line.” The SFOC
requires USA to conform to the NSTS 07700 series of documentation. NSTS 07700, "Space Shuttle Program
Requirements and Description," Volume V, references NSTS 08242 and states that a detailed materials list shall
be provided for all materials approved for use in and around the orbiter vehicle during ground operations.
                                                                                                                2

We have addressed safety involving NASA contractors, including the control of PFA’s at
Kennedy’s payload processing facilities, in four prior audit reports.3 A synopsis of those reports is
in Appendix B.

Background

USA’s Space Shuttle processing activities at Kennedy occur in several facilities. In each of those
facilities, USA uses various PFA’s to protect surfaces of the orbiter vehicles and other segments of
the Space Shuttle. More specifically, USA covers sensitive electrical components with plastic film
secured with adhesive tape to prevent contamination. USA also uses foam padding inside
compartments of the orbiter vehicles to protect flexible hoses and cables from damage by
technicians. The same foam covers the wings of the orbiter vehicle to prevent damage during
processing.

Kennedy Handbook 1710.2, “Kennedy Space Center Safety Practices Handbook,” requires that
plastic films, foams, and adhesive tapes pass acceptance criteria for flammability resistance, ESD
rate, and hypergolic compatibility.4 Kennedy and USA management have acknowledged the risks
of using PFA’s around Space Shuttle payloads and flight hardware. Such risks include fire ignition
from ESD sensitive materials and fire propagation through materials that do not meet flammability
standards. Since 1995, several fires involving PFA’s that did not meet NASA standards have
occurred in Kennedy facilities that house the orbiter vehicles and other hardware and equipment
(including an incident as recently as April 2001), resulting in significant property damage. Because
of those risks, NASA and USA have developed specific policies and procedures regarding the use
and control of PFA’s around space flight hardware.

Recommendations

We recommended that management improve the controls over the use of PFA’s in and around the
orbiter vehicles by developing one centralized list of PFA’s approved for use in and around the
orbiters, clarifying procedures for using materials not on the approved


3
  We issued reports No. IG-01-017, “Space Shuttle Program Management Safety Observations,”
March 23, 2001; No. IG-00-035, “Contract Safety Requirements at Kennedy Space Center and Marshall Space
Flight Center,” June 5, 2000; No. IG-00-028, “Safety Concerns with Kennedy Space Center’s Payload Ground
Operations,” March 30, 2000; and No. IG-99-047, “Safety Considerations at Goddard Space Flight Center,”
September 22, 1999.
4
  Kennedy Handbook 1710.2, references the Kennedy Materials Sciences Division Intranet, which also includes
foams as materials that must pass the acceptance criteria. The basic requirements are:
Flammability Resistance – the material should be self-extinguishing before 6 inches of the test sample is
consumed, should not drip flaming particles, and should not permit fire to propagate to another object.
ESD – the material cannot hold a charge of more than 350 volts, 5 seconds after termination of the initial charge.
Hypergolic Compatibility – the material should not have an extreme reaction such as discoloration or temperature
increase when exposed to hypergols (rocket fuel).
                                                                                                                  3

list, and requiring personnel from the Kennedy Shuttle Processing Directorate's, Shuttle Safety and
Mission Assurance Division (Kennedy Shuttle Safety Office) to be more involved in the control and
use of PFA’s. We also recommended that management review a group of questioned PFA’s listed
in Appendix E of our report to ensure that the materials are being used safely. These
recommendations will help ensure that NASA knows the flammability, ESD, and hypergolic
compatibility characteristics for the PFA’s used in and around the orbiters and exercises proper
safety precautions based on those characteristics. These actions will help to reduce the risk of harm
to personnel and damage to the orbiter vehicles and other space flight hardware and equipment.

Management Response and OIG Evaluation

Kennedy partially concurred with all the recommendations, but we are concerned that the proposed
actions are responsive to only three of the five recommendations.5 Management responded that the
administration and documentation of the control and use of PFA’s needs improvement. Kennedy
asserted that all PFA’s used in and around the orbiter vehicles were used safely. Kennedy has
established an inter-Center team to review and improve requirements, policies, and processes
related to the use of PFA’s at Kennedy. Kennedy reviewed the PFA’s listed in Appendix E of our
report and asserted that all of those materials were used properly.

Kennedy did not provide specific corrective actions regarding how the Kennedy Shuttle Safety
Office will review all proposed USA Ground Safety Operating Procedure (GSOP) changes prior to
implementation as required by the SFOC, determine whether potential hazards are present in
operations, and approve and allow the use of materials that have failed required tests or have not
been tested. We have asked management to provide specific corrective actions and implementation
dates.

Although management concluded that it used all of the materials safely, that was not the case during
our audit field work. When we initially presented our audit results, management did not know
whether USA used the materials safely but stated that it would perform further research. More than
4 months after receiving our results, Kennedy concluded that USA used the materials safely even
though Kennedy was never able to present evidence of materials testing results from any NASA
Center or test facility. In our opinion, management should know at all times whether materials in or
around the orbiter vehicles are used in a safe manner.



5
 Management asserted that appropriate corrective action was taken in response to an official mishap report
attributing a 1995 fire in Kennedy’s Orbiter Processing Facility to improper use of PFA’s. However, since 1995,
at least two additional mishaps involving PFA’s have occurred in Kennedy facilities that house the Space
Shuttle orbiters and other hardware and equipment. In August 1998, a fire in USA's Kennedy Logistics Support
Facility started when a spark ignited gases in a plastic bag that held lithium batteries. In April 2001, vapors from
a bottle containing a waterproofing agent ignited in the Orbiter Processing Facility during the use of materials
that had a high potential for ESD. Additional corrective actions are warranted to ensure proper control of PFA’s.
                                                                                                4

Management also commented extensively on our findings (see Appendix F). We respond to those
comments in Appendix G of the report.

Details on the status of the recommendations are in the report’s recommendation section.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of Controls Over the Use of Plastic Films, Foams, and Adhesive Tapes In
and Around the Space Shuttle Orbiter Vehicles
                  FINAL REPORT
 AUDIT OF CONTROLS OVER THE USE OF PLASTIC FILMS,
FOAMS, AND ADHESIVE TAPES IN AND AROUND THE SPACE
            SHUTTLE ORBITER VEHICLES
W                                                                           August 31, 2001

TO:            M/Associate Administrator for Space Flight
               Q/Associate Administrator for Safety and Mission Assurance
               AA/Director, John F. Kennedy Space Center

FROM:          W/Acting Assistant Inspector General for Audits

SUBJECT:       Final Report on Audit of Controls Over the Use of Plastic Films, Foams, and
               Adhesive Tapes In and Around the Space Shuttle Orbiter Vehicles
               Assignment Number A-00-041-01
               Report Number IG-01-034

Enclosed please find the subject final report. Our evaluation of your response has been
incorporated into the body of the report and is included in its entirety in Appendix F. We consider
management's proposed corrective actions responsive for recommendations 1, 4, and 5. We
request that management provide additional comments on recommendations 2 and 3 by October
30, 2001. The additional comments should provide the specific corrective actions and
implementation dates in relation to how the Kennedy Shuttle Safety Office will (1) review all
proposed Ground Safety Operating Procedure (GSOP) changes prior to implementation as
required by the Space Flight Operations Contract (SFOC), (2) determine whether potential hazards
are present in operations, and (3) review and approve Material Use Permits or variances that allow
the use of materials that have failed required tests or have not been tested. The recommendations
will remain open for reporting purposes until corrective actions are completed. Please notify us
when action has been completed on the recommendations, including the extent of testing performed
to ensure corrective actions are effective. The final report distribution is in Appendix H.

We appreciate the courtesies extended to the audit staff. If you have questions concerning the
report, please contact Mr. Kevin J. Carson, Deputy Assistant Inspector General for Audits, at
(301) 286-0498, or Mr. Karl Allen, Audit Program Manager, at
(202) 358-2595.


[original signed by]
Alan J. Lamoreaux

Enclosure
                                                     2

cc:
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/ Director, Management Assessment Division
QS/Director, Safety and Risk Management Division
AA/Acting Director, Lyndon B. Johnson Space Center
                           NASA Office of Inspector General
IG-01-034                                                                    August 31, 2001
 A-00-041-01

                      Controls Over the Use of Plastics Films,
                        Foams, and Adhesive Tapes In and
                     Around the Space Shuttle Orbiter Vehicles

Introduction

The OIG is performing an audit of USA’s Safety Procedures under NASA’s SFOC. USA is
responsible for the day-to-day operation and management of the U.S. Space Shuttle fleet. USA's
work affects the safety of NASA's astronauts, the Space Shuttle orbiters and other flight hardware,
personnel, and equipment. In conducting our audit, we reviewed USA’s controls over the use of
PFA’s in and around the orbiter vehicles and other segments of the Space Shuttle such as the solid
rocket boosters and main engines. We identified several weaknesses with the control of PFA’s and
are bringing these observations to management’s attention as we continue with our overall audit of
USA’s safety program.

Our overall audit objective is to evaluate USA safety procedures for NASA's SFOC. The specific
objective related to this report was to determine whether Kennedy properly controlled potentially
unsafe materials used in contract performance. Appendix A contains further details on the audit
objectives, scope, and methodology.

Results in Brief

Kennedy management has acknowledged the safety risks of not properly controlling the use of
PFA’s in NASA facilities and requires all such materials to be evaluated for flammability resistance,
ESD rate, and hypergolic compatibility characteristics. However, USA is routinely using in and
around the orbiter vehicles and other segments of the Space Shuttle PFA’s for which those
characteristics are not known. Neither the USA Safety Office nor the Kennedy Shuttle Safety
Office have approved these materials for use. Further, USA’s procedures for the safe handling and
use of PFA’s in and around the orbiter vehicles were not effective in that USA (1) allowed a
Materials and Processes (M&P) engineer, rather than a safety professional, to make key safety
decisions regarding the use and testing of PFA’s; (2) changed its procedures concerning PFA’s
rather than comply with established testing and safety requirements; and (3) continued to use
materials that had contributed years earlier to a fire in the Kennedy Orbiter Processing Facility. 6
This lack of control over the use of PFA’s creates a potential safety hazard to personnel, the orbiter
vehicles, and other flight hardware and equipment.

Background

USA’s specific responsibilities include Space Shuttle modification, testing, checkout, launch and
landing activities at Kennedy, and flight operations at the Lyndon B. Johnson Space Center
(Johnson). USA’s Space Shuttle processing activities at Kennedy occur in several facilities,
including the (1) Vehicle Assembly Building;7 (2) three high bays of the Orbiter Processing Facility;
(3) Hypergolic Maintenance Facility;8 and (4) Rotation, Processing, and Surge Facility. 9 In each of
these facilities, USA uses various PFA’s to protect surfaces of the orbiter vehicles and other
segments of the Space Shuttle.

The Kennedy Directors of Logistics Operations and Space Station and Shuttle Payloads recognized
the risks associated with using PFA’s in a June 1999 memorandum. The memorandum directed
personnel to improve safety procedures in two Kennedy processing facilities and emphasized the
need to properly control PFA usage as follows:

                  . . . it is important that the Materials and Processes (M&P) engineers control
                  the use of PFA’s and solvents in [the Operations and Checkout Building
                  and the Space Station Processing Facility]. . . . Compliance with the rules for
                  the use of materials that meet the requirements for flammability resistance,
                  electrostatic discharge, odor, offgassing, breakthrough resistance, and fluid
                  compatibility is mandatory to ensure safety, contamination control, and
                  mission success.


Control of PFA’s In and Around Space Shuttle Orbiter Vehicles

We identified PFA’s that are either in use or approved for use in and around the orbiters for which
USA has not properly identified the flammability resistance, ESD rate, and hypergolic compatibility
characteristics. USA did not have any of the PFA’s tested for those characteristics as required, and
Kennedy and USA safety professionals have not approved the PFA’s for use. This condition
exists because of (1) inadequate USA procedures for ensuring the testing and safe use of PFA’s,
(2) inadequate oversight by the Kennedy Shuttle Safety Office, and (3) incomplete material
6
  The Orbiter Processing Facility consists of three high bays, two low bays, and administrative space where USA
conducts post-landing orbiter vehicle inspections, testing, and refurbishment and installation and checkout of
the payload for the next mission.
7
  USA uses the Vehicle Assembly Building for (1) integration and stacking of the Space Shuttle vehicle, (2)
external tank checkout and storage, (3) contingency storage, (4) payload canister operations, and (5) solid rocket
booster handling.
8
  The Hypergolic Maintenance Facility consists of three buildings and all facilities required for USA to process
and store the hypergolic-fueled modules for the orbiter's reaction control system, orbital maneuvering system,
and auxiliary power units.
9
  USA uses this facility to isolate hazardous operations associated with solid rocket motor rotation and
processing capabilities and to conduct solid rocket motor receiving, rotation, and inspection.

                                                        2
approval and testing records. As a result, materials USA is using in or near the orbiter vehicles may
not meet NASA standards for flammability resistance, ESD rate, and hypergolic compatibility. This
situation creates a potential fire hazard and a safety risk to personnel, the orbiter vehicles, and other
flight hardware and equipment.

Requirements for Safe Use of PFA’s

The SFOC establishes the responsibilities for ensuring safe operations at Kennedy’s Space Shuttle
processing facilities as follows:

           Safety Responsibilities at Kennedy’s Space Shuttle Processing Facilities

     Organization                  Safety Responsibilities as Defined by the SFOC


                                Develop and implement (1) an approach in which ground
                                operations and maintenance activities are assessed for hazards and
        USA                     (2) a process in which NASA and other noncontractor personnel
                                and property are protected from injury or harm as a result of
                                exposure to those hazards.

                                Perform surveillance, audits, and technical insight of contractor
NASA (Kennedy
                                safety and mission assurance activities; prepare and maintain a
Shuttle Safety
                                ground operations safety surveillance plan; and review and
Office)
                                approve variance requests.


Numerous NASA-wide and Kennedy-specific requirements address the testing and control of
PFA’s and other materials. Appendix C provides details on these requirements.10 NASA and
Kennedy policies generally require that all PFA’s used near the orbiter vehicles be tested and
evaluated for NASA’s standards for flammability resistance, ESD rate, and hypergolic compatibility
characteristics. Use of the PFA’s must then be controlled based on those characteristics. Materials
that meet NASA standards are placed on approved lists.11 Materials that do not meet those




10
   Attachment J-11 to the SFOC refers to applicable NASA policies and procedures. Specifically, the SFOC
incorporates, by reference, NASA-STD-6001 and Kennedy Handbook 1710.2. Appendix C of this report contains
additional requirements regarding PFA testing and control. These additional requirements are also incorporated,
by reference, into the SFOC contract.
11
   Several sources identify the PFA's approved for use in and around the Space Shuttle orbiter vehicles: (1)
Appendix C of NSTS 08242, "Limitations for Non-flight Materials and Equipment Used In and Around the Space
Shuttle Orbiter Vehicles"; (2) Appendix I of USA’s GSOP 5400; (3) the Kennedy Materials Science Division's
Intranet; and (4) the George C. Marshall Space Flight Center’s (Marshall) online Materials and Processes
Technical Information System (MAPTIS), which contains test data for PFA’s tested at other NASA locations
such as Marshall or NASA’s White Sands Test Facility.

                                                      3
standards can be used only after obtaining a Materials/Equipment Usage Permit (Material Use
Permit)12 or a safety variance,13 both of which require USA and Kennedy safety office approval.

Based on the safety responsibilities as described in the SFOC and NASA and Kennedy policies on
the testing and control of PFA’s, the process flow for the safe use of PFA’s in and around the
Space Shuttle orbiter vehicles is depicted in Figure 1.

                             Kennedy Materials &
                                                          USA Safety Office                   Kennedy Shuttle Safety Office
     USA Task Engineer       Sciences Lab



                                                       -Identify and assess risks based
                               Test the PFA and         on materials characteristics.
      Propose use of              identify the                                                    Perform Insight/
                                                       -Develop safe usage procedures
     PFA to USA M&P           flammability, ESD,                                                    Surveillance
                                                        based on identified risks
        Specialist               and hypergolic                                                   into USA safety
                                                       -Prepare variance that includes
                                 compatibility                                                        activities
                                                       the risks and safe usage procedures
                                characteristics.




       Use material in                                                                       Review and approve variance
     accordance with the                                      Safety variance
                                                                                                       request
     approved variance                                       (or Material Use
                                                              Permit) request
                               If the material
                               meets NASA
                               standards, it is
                                                                                                      Approved
                               placed on an
                                                                                                    safety variance
                               approved list.


             1


                                                                                                          1




Figure 1. Process flow for the use of PFA’s In and Around the Space Shuttle Orbiter Vehicles.


PFA’s With Unknown Flammability, ESD, and Hypergolic Compatibility Characteristics

Through our observations14 and review of the lists of materials approved for use in and around the
orbiters, we identified 3015 PFA’s that were either in use or approved by




12
   A Material Use Permit is a standard document that allows USA Task Engineers to use a certain type of
material, on a temporary or permanent basis, subject to the restrictions described in the document.
13
   NASA Handbook 1700.1, “NASA Safety Policy and Requirements Document,” defines a variance as
documented and approved permission to perform some act contrary to established requirements.
14
   From July through October 2000, we toured six of the nine Kennedy facilities USA used for Space Shuttle
processing activities: the Vehicle Assembly Building; Hypergolic Maintenance Facility; Rotation, Processing,
and Surge Facility; and high bays 1, 2, and 3 of the Obiter Processing Facility.
15
   The Kennedy Materials Science Lab could not provide testing data for Mystik 7000 tape (shown in Figure 2).
The Lab tested the Mystik 7000 tape in 1995 after a fire occurred in the Orbiter Processing Facility. The Kennedy
mishap file stated that the material failed ESD tests and, along with ACLAR plastic film, was a contributing factor
to the fire. Although we listed Mystik 7000 tape in Appendix E, we did not include it in our count of 30 PFA’s.

                                                         4
NASA or USA for general use in and around the orbiter vehicles16 even though USA had no record
of test data and flammability, ESD rate, and hypergolic compatibility characteristics. We discussed
each of the 30 PFA’s with safety, M&P, and Space Shuttle program personnel from both USA and
Kennedy and reviewed available testing records and determined that:

•    The Kennedy Materials Science Lab17 had not tested the 30 PFA’s for flammability, ESD rate,
     and hypergolic compatibility.

•    Marshall's online Materials and Processes Technical Information System (MAPTIS) contained
     no evidence to support that 16 (53 percent) of the PFA’s had been tested for flammability
     resistance, ESD rate, or hypergolic compatibility at any other NASA location. The test results
     in MAPTIS for the remaining 14 PFA’s did not state whether the materials had passed or failed
     required tests.

•    Neither USA nor Kennedy had any record of Kennedy or USA safety office review and
     approval for 29 of the 30 materials.

Figure 2 shows an example of the use of these materials.




16
   During our tours of the six Space Shuttle processing facilities, we observed technicians using various PFA’s in
and around the orbiter vehicles and other components of the Space Shuttle and large quantities of PFA’s stored
in these facilities for USA’s future use. The PFA’s we observed in use were: (1) plastic films covering sensitive
flight hardware components to prevent contamination; (2) adhesive tapes securing plastic films to items of flight
hardware; and (3) polyvinyl foam insulating and protecting cables, work stands, and surfaces of the orbiter
vehicles, such as the wings. Appendix D of this report shows examples of such usage. NASA approved 24 of
the PFA’s by including them in Appendix C of NSTS 08242. Through the Material Use Permit process, Kennedy
and USA M&P personnel approved four of the PFA’s. We observed the remaining two materials, Armalon
fabric (shown in Figure 2) and RE22 tape (shown in Figure D-3 in Appendix D), affixed to the outer surfaces of
Orbiter Vehicle-105.
17
   The Kennedy Materials Sciences Lab, a branch of the Materials Sciences Division, is identified by NSTS 08242
as the organization responsible for materials testing at Kennedy.

                                                        5
                                                                                                              Armalon
                                                                                                              fabric

                                                                                                              Mystik
                                                                                                              7000




                                                                                                           Figure
                                                                                                           2.

        Armalon fabric is adhered to outer tile of Orbiter Vehicle-105 (Endeavor) with Mystik 7000 tape. We
        took this photograph in the Orbiter Processing Facility on October 17, 2000. A USA engineer
        specialist identified these materials as Armalon fabric and Mystik 7000 tape.



Neither the Armalon fabric nor the Mystik 7000 tape shown in Figure 2 are on the Kennedy
Materials Science Lab's list of approved materials 18 and are not included in Appendix C of NSTS
08242 as approved for general use in and around the orbiter vehicles. USA did not obtain a
Material Use Permit allowing the use of either material. The Kennedy Materials Sciences Lab
previously identified the Mystik 7000 tape as a contributing factor to a fire that occurred near one of
the orbiter vehicles in 1995 (see page 11 for details).

Without test data for these PFA’s, USA management is unable to identify the specific flammability
resistance, ESD rate, and hypergolic compatibility properties for each material, making it impossible
to effectively manage the associated risks. A full description of the PFA’s, testing information, and
Material Use Permit data is provided in Appendix E of this report.




Control Over the Use of PFA’s


18
  Armalon is a trade name and, without additional information, we were unable to determine whether the
Kennedy Materials Science Lab or other NASA locations have tested the specific material in use. MAPTIS
contained flammability, toxicity, and thermal vacuum stability test data for Mystik 7000 tape; however, the test
results do not clearly state whether the tape passed or failed required tests.

                                                        6
The inadequate control over the use of PFA’s in and around the orbiter vehicles resulted from (1)
inadequate USA procedures for ensuring the safe use of PFA’s, (2) Kennedy Shuttle Safety
Office’s limited oversight of USA’s use of PFA’s, and (3) incomplete NASA PFA approval and
testing records.

USA Safety Procedures for the Use of PFA’s. USA did not have adequate procedures in place
to ensure the safe use of PFA’s in and around the orbiter vehicles as required by the SFOC. USA
(1) had unclear procedures regarding when to use a Material Use Permit or a safety variance and
allowed M&P personnel, rather than safety professionals, to make decisions regarding the safe
control and use of PFA’s and (2) significantly changed its material safety procedures without
notifying NASA.

•    Use of a Material Use Permit or a Safety Variance. Where circumstances dictate, USA
     may use PFA’s not on the approved lists by obtaining a Material Use Permit, safety variance, or
     both. 19 The requirements for safety office involvement and the
     preparation of a risk assessment 20 differ significantly between a Material Use Permit and a
     safety variance as shown in the following:

     Key Differences Between a Material Use Permit and a Safety Variance


           Document           Kennedy or USA Safety Office Involvement.             Risk Assessment


       Material Use Permit    Only if the USA M&P engineer specialist                  Not required
                              determines that safety office involvement is
                              necessary.


        Safety Variance       Kennedy and USA safety office approval is                  Required
                              required.


     While the requirements of the Material Use Permit and safety variance process differ, USA’s
     procedures are unclear regarding when one procedure is more appropriate than the other.
     According to USA procedures, a USA M&P representative is responsible for approving or
     disapproving a Material Use Permit when an organization wishes to use a previously



19
   As an example of the use of both a Material Use Permit and a variance, on February 13, 1996, Kennedy and
USA signed Material Use Permit 96-005, allowing the use of Fromelt Saf-T-Vu plastic film. The film does not meet
the safety requirements regarding flammability resistance, as established by Appendix I of USA’s GSOP 5400
and Chapter 7 of the Kennedy Safety Handbook. In 1999, Kennedy and USA also issued safety variance 99-028
for the same material.
20
   A risk assessment is a process of identifying all risks involved in a certain operation and the likelihood of
those risks occurring. NASA Procedures and Guidelines 8715.3, “NASA Safety Manual,” dated January 24,
2000, states that the primary purpose of risk assessment is to identify and evaluate risks to support
decisionmaking regarding actions to ensure safety and mission success.

                                                       7
     unapproved PFA in and around the orbiter vehicles.21 The USA M&P engineer specialist
     determines whether the proposed use of the material poses a hazard. The M&P engineer
     specialist does not seek Kennedy or USA Safety Office involvement and does not submit the
     material to the Kennedy Materials Science Lab for testing unless the engineer specialist
     determines that hazards are present. In addition, USA’s Material Use Permit process does not
     require the requesting organization to prepare a risk assessment for use of the PFA.

     In contrast to the Material Use Permit process, USA’s safety variance procedures require the
     organization wishing to use a previously unapproved PFA to prepare and submit for Kennedy
     and USA Safety Offices’ approval, a safety variance and associated risk assessment.22
     Although USA’s GSOP 540023 states that deviations from safety requirements must be
     submitted as a safety variance, USA often used Material Use Permits for this purpose. As a
     result, we could not clearly ascertain USA’s policy for obtaining a Material Use Permit rather
     than a safety variance in order to use an unapproved PFA. USA did not consistently apply the
     Material Use Permit and variance process and, therefore, did not obtain safety office approval
     and did not prepare risk assessments to support its decisions to use unapproved materials in
     Kennedy's Space Shuttle processing facilities. USA should have clear, uniform procedures for
     using previously unapproved PFA's, including defining when it is appropriate to use a Material
     Use Permit or a variance. The procedures should also identify the review and approval
     requirements of both the Kennedy Shuttle Safety Office and USA Safety Office for Material
     Use Permit or variances.

•    USA’s Changed Material Safety Procedures.24 In a September 28, 2000, meeting with
     USA M&P and safety officials, we made reference to Revision C of GSOP 5400, the then
     current version of the document. During that meeting, we pointed out that GSOP 5400
     required risk assessments and tests of all PFA’s. On October 3, 2000, USA made changes to
     Revision C of GSOP 5400, stating that as a result of our audit, changes were necessary to
     clarify existing policies. By modifying the document, USA omitted the two sections that
     required risk assessments, including tests of flammability resistance, ESD rate, and hypergolic
     compatibility, prior to using any




21
   Since 1990, Kennedy or USA M&P personnel have prepared and approved 114 Material Use Permits of which
11 are related to PFA’s.
22
   From January 1, 1998, through July 13, 2000, Kennedy and USA safety officials approved 99 safety variances,
of which 3 were related to PFA’s.
23
   GSOP 5400 is the USA document that specifies and establishes safety policies and procedures required during
operations and maintenance activities at USA-designated areas of Kennedy.
24
   Because the SFOC is a performance-based contract, USA may change its operating procedures without
seeking or receiving NASA approval unless such change increases the risk beyond an acceptable level or
directly violates a NASA or Kennedy requirement. USA, however, must submit to the Kennedy Shuttle Safety
Office, a rationale and risk assessment for changes to operating procedures. Two weeks after USA revised its
materials safety procedures, the Kennedy Shuttle Safety Office had not yet received notification of the changes
and was unaware that USA had instituted new procedures.

                                                       8
     plastic film and adhesive tape.25 In effect, USA changed its procedures concerning PFA's
     rather than comply with the testing and risk assessment requirements. Additionally, USA had
     not notified Kennedy Shuttle Safety Office officials of the significant changes in USA material
     safety procedures. USA should reestablish the requirements on PFA testing and risk
     assessments in GSOP 5400 to ensure that it is compliant with NASA and Kennedy safety
     policies and SFOC requirements.

As required by the SFOC, USA should have documented safety procedures in place for assessing
ground operations and maintenance activities for hazards such as untested PFA’s and for protecting
personnel and property from those hazards.

Kennedy Shuttle Safety Office Oversight of USA. The NASA Kennedy Shuttle Safety Office
was not actively involved in overseeing USA’s PFA usage as stipulated in the SFOC. The
Kennedy Shuttle Safety Office’s surveillance procedures did not include steps for gaining insight into
USA’s material selection and usage. Kennedy Shuttle Safety Office personnel were unaware that
(1) the USA M&P engineer specialist frequently approved Material Use Permits without consulting
either the USA or Kennedy Shuttle Safety Offices, (2) USA did not have the Kennedy Materials
Science Lab test all PFA’s, and (3) USA made significant changes to its materials safety
procedures. Also, Kennedy Shuttle Safety Office personnel erroneously believed that, at a
minimum, USA tests all new, unapproved PFA’s for flammability resistance. As required by the
SFOC, the Kennedy Shuttle Safety Office personnel must perform surveillance and gain better
insight into USA’s use and control of PFA’s by reviewing all variances, Material Use Permits, and
procedure changes. Improved insight will help ensure the safe use of PFA’s.

Approved Material and Test Records. There is no centralized list of approved materials and no
test records for some materials in use in and around the orbiter vehicles. We identified several,
often conflicting, sources of approved materials and requirements regarding material selection,
testing, and control. Appendix I of USA’s GSOP 5400 and Chapter 7 of the Kennedy Safety
Practices Handbook state that current approved adhesive tape and plastic film lists are on the
Kennedy Materials Science Division Intranet. However, USA M&P personnel also refer to
Appendix C of NSTS 08242, “Limitations for Non-flight Materials and Equipment Used In and
Around the Space Shuttle Orbiter Vehicles”; Material Use Permit and safety variance files; and the
MAPTIS when selecting PFA’s for use in Kennedy's Space Shuttle processing facilities. As a
result, there are at least five sources used for identifying approved materials, whereas Kennedy
policy references only the Kennedy Materials Science Division Intranet as the source of approved
materials. In addition, our review of MAPTIS showed that it did not clearly indicate whether

25
  Prior to the changes of October 3, 2000, Appendix I and Section 2.21 of GSOP 5400, Revision C, required users
to obtain test data from the Kennedy Materials Science Lab before using a PFA in order to verify the material’s
performance and to aid in material selection. In contrast, the revised version of Revision C and Revision D of
GSOP 5400, dated November 15, 2000, state that PFA testing is required only during the Material Use Permit
process if material uses are hazardous or controlled. Also, the revised Appendix I specifies that only selection of
PFA’s for use in and around the obiter vehicles shall comply with the Material Use Permit approval process,
which does not require a safety assessment and does not require approval by the Kennedy or USA Safety
Offices.

                                                        9
materials had passed or failed required tests. The Director, John F. Kennedy Space Center, should
establish one centralized list of materials approved for use in and around the orbiter vehicles, with
reference to all associated testing records.

Effects of Inadequate Control Over PFA’s

Without active Kennedy Shuttle Safety Office and USA Safety Office involvement, USA has neither
conducted an assessment of risk nor developed appropriate safety procedures for the use of
PFA’s. This hinders USA's and NASA’s ability to effectively manage the potential risks and
hazards associated with the use of PFA’s.

A Kennedy Materials Science Lab official, who is responsible for conducting required tests of
PFA’s and other materials, stated that using PFA’s that have never been tested could be
catastrophic from a safety standpoint. He opined that USA should, at a minimum, request tests of
flammability resistance for new or unapproved PFA’s intended for use in and around the orbiter
vehicles. He also stated that Kennedy and USA Safety Offices should be involved in the process of
determining whether a PFA or its proposed use is potentially hazardous.

USA acknowledged the potentially unsafe nature of PFA’s by stating in GSOP 5400, Revision D,
the following warning regarding ESD rate, flammability resistance, and improper use of adhesive
tapes and plastic films:

                  If a flammable adhesive tape is used to join two thin sheets of plastic that
                  meet flammability requirements, and if the tape accidentally ignites, it (and its
                  adhesive) can act as a path to quickly propagate the flame from one edge to
                  the other of the normally self-extinguishing plastic film. . . . When pulling
                  tape from its roll or any surface to which the tape is adhered, pull slowly to
                  minimize electrostatic charge build-up.26


Fires involving PFA’s have occurred in Kennedy facilities that house the Space Shuttle orbiters and
other hardware and equipment.

•    In August 1998, a fire in USA's Kennedy Logistics Support Facility started when a spark
     ignited gases in a plastic bag that held lithium batteries.27 The fire damaged 196 items including
     cables, components, batteries, and test equipment and resulted in $133,568 in damages.

•    In May 1995, a fire occurred in the Orbiter Processing Facility as a direct result of PFA’s that
     did not meet ESD standards. The fire caused damage to Orbiter Vehicle-105’s thruster and
     surrounding tiles and endangered three technicians. According to the official mishap report, five

26
   GSOP 5400 states that Kennedy Materials Science Lab tests of some tapes showed that voltages in excess of
10,000 volts (at 30-percent relative humidity) result when a user pulls the tape from its roll. The voltage can
remain for a significant time. Under some circumstances, surface rubbing of affixed tape can result in buildup of
voltages in excess of 20,000 volts.
27
   USA's Kennedy Logistics Support Facility houses about 500 NASA and contractor personnel and 190,000
Space Shuttle hardware parts.

                                                         10
     of the seven PFA’s involved in the mishap, including Mystic 7000 tape, failed ESD tests
     conducted by the Kennedy Materials Science Lab after the fire.28

The two fires clearly indicate a need to ensure that all PFA's used in Kennedy's Space Shuttle
processing facilities are adequately tested and approved for use by the appropriate safety
professionals. The Kennedy Shuttle Safety Office should appropriately assess whether the materials
listed in Appendix E of this report are properly used and controlled.

Summary

The orbiter vehicles along with the workforce that helps to maintain them and the supporting
infrastructure are core elements of the Agency’s mission. NASA must do everything reasonably
possible to protect these capabilities. As the NASA Administrator stated in his January 1999
message on safety, NASA must become informed risk takers by identifying, understanding, and
managing risk in all that is done. As shown through prior mishaps, inadequate control of PFA’s in
the facilities that house the orbiters and other components of the Space Shuttle can be very risky.
NASA must effectively manage those risks by first identifying the characteristics of the PFA’s
through testing and then
performing assessments to ensure that the materials are used safely based on the identified
characteristics. To help achieve this, NASA and USA must have clear procedures in place that
include involvement by the appropriate safety professionals.

Recommendations, Management’s Response, and Evaluation of
Response

The Director, John F. Kennedy Space Center, should:

     1. Clarify the procedures for using Material Use Permits and safety variances for
     PFA’s that are not on the approved list. The procedures should include appropriate
     NASA or USA safety office review and approval of all Material Use Permits and
     variances.

Management’s Response. Partially concur. An inter-Center team will review existing
requirements for the use of PFA's. The team will provide recommended documentation




28
   Mishap investigators concluded that the most probable cause for ignition of the hypergolic fuel present was
the generation of an electrostatic spark between a technician’s tool and the fuel feedline fitting. The PFA’s used
for hypergolic fuel spill protection passed the electrostatic charge to the technician’s suit, gloves, and tool. The
mishap report stated that it is possible for a technician’s protective suit to generate voltages of sufficient
magnitude to produce an electrostatic arc from a tool held by that technician. The report further stated that the
situation is further complicated when PFA’s are present that generate a significant electrostatic charge that can
dissipate at a dangerous level.

                                                         11
changes to clarify or enhance the requirements, roles, and responsibilities for the use of PFA’s for all
programs at Kennedy. The complete text of management's response is in Appendix F.

Evaluation of Management’s Response. Management’s planned action is responsive to the
recommendation. Our concern is that USA did not consistently apply the Material Use Permit and
variance process and, therefore, did not obtain USA or Kennedy Safety Office involvement in its
decisions to use unapproved materials in Kennedy's Space Shuttle processing facilities. The inter-
Center team’s recommendations should include clear procedures for ensuring either USA or
Kennedy Safety Office approval for the use of PFA’s that are not on an approved list, at Kennedy
Space Shuttle processing facilities, whether it be by way of a Material Use Permit or a variance.
The recommendation is resolved, but will remain undispositioned and open for reporting purposes
until corrective actions are completed.

NASA management also provided extensive comments on the finding that we address in Appendix
G.

     2. Request USA to revise GSOP 5400 to reestablish the requirements for PFA testing
     that were removed from Revision C on October 3, 2000, and obtain Kennedy Shuttle
     Safety Office review of all proposed GSOP changes prior to implementation as
     required by the SFOC.

Management’s Response. Partially concur. The inter-Center team will review GSOP 5400 for
compliance with NSTS 08242 and Kennedy Handbook 1710.2 requirements for the use of PFA’s.
All required documentation changes will be implemented to assure compliance with NASA
requirements (see Appendix F).

Evaluation of Management’s Response. Management’s planned action is not responsive to the
recommendation. Kennedy did not specifically address corrective actions to ensure that the
Kennedy Shuttle Safety Office reviews all proposed GSOP changes prior to implementation. The
audit determined that USA made significant changes to GSOP 5400 regarding the testing and
control of PFA’s without notifying the Kennedy Shuttle Safety Office. Section A of the SFOC
states that, “the contractor shall keep NASA continually informed about all concerns and issues,
particularly those related to safety and mission success.” Instituting a procedure that requires the
Shuttle Safety Office to review all proposed changes to USA’s GSOP would ensure compliance
with the SFOC and improve surveillance over USA’s operations. Therefore, we request that
management provide additional comments that address whether the Kennedy Shuttle Safety Office
will review all proposed GSOP changes prior to implementation by USA. The additional comments
should also include an estimated completion date for planned corrective actions. The
recommendation is unresolved and will remain undispositioned and open for reporting purposes.



     3. Direct Kennedy Shuttle Safety Office personnel to be more actively involved in the
     safe use of PFA’s by (a) determining whether potential hazards are present in

                                                  12
     operations, (b) reviewing and approving Material Use Permits or variances that allow
     the use of materials that have failed required tests or have not been tested, and (c)
     increasing surveillance of PFA usage in and around the orbiter vehicles and other
     elements of the Space Shuttle.

Management’s Response. Partially concur. Kennedy has added a periodic internal audit of the
PFA process for the Shuttle that is scheduled to be performed in July 2001. Internal and
independent verification audits will have a special focus on the use of PFA’s (see Appendix F).

Evaluation of Management’s Response. Management’s planned action is not fully responsive
to the recommendation. Kennedy did not specifically address corrective actions to ensure that the
Kennedy Shuttle Safety Office becomes more actively involved in the safe use of PFA’s by (1)
determining whether potential hazards are present in operations and (2) reviewing and approving
Material Use Permits or variances that allow the use of materials that have failed required tests or
have not been tested. As discussed in the report, the USA M&P engineer specialist (who is not a
safety engineer) had sole responsibility for determining whether the proposed use of a specific PFA
posed a hazard. The M&P engineer did not seek Kennedy or USA safety office involvement and
did not submit materials to be tested unless he determined that hazards were present. Having a
safety engineer review the proposed use of any PFA’s not on an approved list would help ensure
the safe use of all PFA’s in Kennedy's Space Shuttle processing facilities. Therefore, we request
that management provide additional comments on how it will ensure that the Kennedy Shuttle Safety
Office determines whether potential hazards are present in operations and reviews and approves all
Material Use Permits or variances that allow the use of materials that have failed required tests or
have not been tested. The additional comments should also include an estimated completion date
for planned corrective actions. The recommendation is unresolved and will remain undispositioned
and open for reporting purposes.

     4. Develop one centralized and approved list of PFA’s approved for use in and around
     the orbiter vehicles in Kennedy's Space Shuttle processing facilities.

Management’s Response. Partially concur. The inter-Center team will assess and provide
recommendations to assure timely access to PFA materials evaluations and/or test results performed
at the NASA Centers (see Appendix F).

Evaluation of Management’s Response. Management’s planned action is responsive to the
recommendation. During the audit, we identified five sources for identifying materials approved for
use in and around the orbiter vehicles. The five sources were the (1) Appendix I of USA’s GSOP
5400, (2) Chapter 7 of the Kennedy Safety Practices Handbook (both state that current approved
adhesive tape and plastic film lists are on the Kennedy Materials Science Division Intranet), (3)
Appendix C of NSTS 08242, (4) Material Use Permit and safety variance files, and (5) the
MAPTIS. If Kennedy and the Space Shuttle Program recognize NSTS 08242 as the definitive list
of PFA’s approved for use in and around the orbiter vehicles, then the inter-Center team should
ensure that this is known by all personnel involved with PFA use. The inter-Center team should
further ensure that the list of approved PFA's in NSTS 0842 has a clear audit trail to all associated

                                                  13
Material Use Permits, variances, and testing records. The recommendation is resolved, but will
remain undispositioned and open for reporting purposes until corrective actions are completed.

    5. Direct the Kennedy Shuttle Safety Office to perform appropriate assessments on
    the use and control of the materials listed in Appendix E of this report.

Management’s Response. Concur. Appendix E has been reviewed and all 30 items have been
verified to be authorized for use by NSTS 08242 or referenced subtier documents (see Appendix
F).

Evaluation of Management’s Response. The action taken by management is responsive to the
recommendation. Kennedy stated in its response to the draft report that the test records for
materials tested by other NASA Centers were not readily accessible. We request that Kennedy
provide us the test records when they become available. The recommendation is resolved, but will
remain undispositioned and open for reporting purposes until corrective actions are completed.




                                                14
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective is to evaluate the United Space Alliance (USA) safety procedures for
NASA’s Space Flight Operations Contract (SFOC). The specific objective related to this report
was to determine whether potentially unsafe materials used in contract performance are properly
controlled.

The remaining objectives, which will be discussed in separate reports, are to determine whether:

    •   NASA is performing effective oversight of USA’s safety program and

    •   safety responsibilities between USA and NASA are clearly defined.

Scope and Methodology

To accomplish our objectives, we:

    •   Discussed materials testing, control, and approval procedures with John F. Kennedy Space
        Center (Kennedy) Materials Science Lab personnel and NASA and USA Materials and
        Processes (M&P) and safety officials.

    •   Reviewed the NASA, Kennedy, and USA requirements for materials testing, control, and
        approval procedures.

    •   Toured the Vehicle Assembly Building; Hypergolic Maintenance Facility; Rotation,
        Processing, and Surge Facility; and high bays 1, 2, and 3 of the Obiter Processing Facility
        during the period July through October 2000.

    •   Queried the USA safety variance database and identified and reviewed all safety variances
        issued by USA from January 1, 1998, through July 13, 2000.

    •   Compared the plastic films, foams, and adhesive tapes (PFA’s) we observed in use with
        various sources of approved PFA’s and test results. The various sources of approved
        PFA’s and test results were the Kennedy Materials Science Lab Intranet, all
        Material/Equipment Usage Permit (Material Use Permits) issued to date, USA safety
        variances for 1998 through 2000, and test data in Marshall’s Materials and Processes
        Technical Information System (MAPTIS).

    •   Compiled a list of 30 PFA’s that the Kennedy Materials Science Lab has not tested for
        flammability resistance, electrostatic discharge (ESD) rate, or hypergolic compatibility but
        that USA used in and around the orbiter vehicles.

                                                  15
Appendix A

Management Controls Reviewed

We reviewed management controls relative to procedures for controlling the use of potentially
unsafe materials in and around the Space Shuttle orbiter vehicles. We determined that controls
need to be strengthened to ensure that the Kennedy and USA safety offices are actively involved in
overseeing PFA usage through a definitive procedure for control of such materials during Space
Shuttle processing under the SFOC. This issue is discussed in detail in the finding section of the
report.

Audit Field Work

We conducted field work from July 2000 through May 2001 at NASA Headquarters and
Kennedy. We performed the audit in accordance with generally accepted government auditing
standards.




                                                16
                 Appendix B. Summary of Prior Audit Coverage

“Space Shuttle Program Management Safety Observations,” Report Number
IG-01-017, March 23, 2001. As part of the ongoing audit of the United Space Alliance (USA’s)
safety procedures under NASA’s Space Flight Operations Contract (SFOC), we evaluated
NASA’s oversight of USA’s safety program. We identified several weaknesses pertaining to
NASA's management control structure for providing oversight of USA’s safety operations under the
SFOC. Specifically, we found that:

    •   the Johnson Safety, Reliability, and Quality Assurance Office was not providing the required
        support to the Manager, Space Shuttle Program Safety and Mission Assurance for
        oversight of USA’s safety activities;
    •   NASA’s contractor surveillance plans did not address all contract requirements for safety;
    •   USA’s Management Plan had not been updated commensurate with the changes to the
        contract; and
    •   USA can improve its reporting to NASA of close calls and mishaps.

Increased management attention to these areas will not only help ensure that NASA has an
adequate control structure in place to provide oversight of USA's safety operations under the
SFOC, but will also provide better control of more than $13 million in annual Space Shuttle
Program funds. We recommended that Johnson ensure that (1) surveillance plans address all
contract requirements for safety, (2) USA’s SFOC Management Plan is kept current, and (3) USA
promptly and accurately reports all required close call and mishap information to NASA’s reporting
system. Johnson did not agree with all of the findings, but concurred with the recommendations.
NASA implemented corrective actions to improve the overall management of safety for the Space
Shuttle Program.

“Contract Safety Requirements at Kennedy Space Center and Marshall Space Flight
Center,” Report Number IG-00-035, June 5, 2000. The NASA Administrator stated in a
January 19, 1999, message that safety is the Agency’s highest core value. On February 26, 1999,
the Administrator emphasized the need for NASA contractors to be supportive of and accountable
for safety. The overall objective of the audit was to evaluate the safety procedures of NASA
contractors. We found that NASA was not applying existing basic safety provisions such as
required contract safety clauses, contractor safety plans at contract award, and Center safety office
involvement in the procurement process to 15 out of 25 contracts that we reviewed at Kennedy and
Marshall. As a result, NASA contractors including some involved in hazardous operations may not
be supporting the same safety goals as NASA. We recommended that Kennedy and Marshall
management identify all open contracts that either involve potentially hazardous operations or
exceed $1 million and determine whether those contracts have the required safety clauses and
contractor safety plans. NASA concurred with our recommendations and implemented corrective
actions to ensure that all applicable contracts contained the required safety documentation.




                                                 17
Appendix B

“Safety Concerns with Kennedy Space Center’s Payload Ground Operations,” Report
Number IG-00-028, March 30, 2000. In February 1999, the House of Representatives
Committee on Science requested that the NASA Office of Inspector General (OIG) address
concerns related to the safety functions of Kennedy’s Payload Ground Operations Contract
performed by McDonnell Douglas Aerospace, Space and Defense Systems, a subsidiary of The
Boeing Company (Boeing). In response to this request, we reviewed the contractor’s operations to
determine whether (1) safety responsibilities between Boeing and NASA had been clearly defined;
(2) hazardous materials were being used in Kennedy’s processing facilities; and (3) hazardous
materials, if used, were properly controlled. The audit identified that ground workers were using
potentially hazardous materials in Kennedy processing facilities without exercising proper control
and safety precautions. This condition existed because (1) Boeing safety personnel had not
performed adequate, contract-required inspections of the facilities; (2) Kennedy and Boeing safety
personnel had not reviewed Material Usage Agreements that authorized the use of noncompliant
materials; and (3) Kennedy and Boeing safety personnel did not perform risk analyses to support
the materials usage agreements. As a result, NASA lacks assurance that associated risks are
adequately identified, documented, reviewed, and mitigated. Improper use of these materials is
potentially hazardous to ground workers and increases the risk of damage to Space Shuttle
payloads, including International Space Station hardware and equipment. We recommended that
management (1) direct the contractor to perform analyses to support the use of all materials that do
not meet requirements for flammability and electrostatic discharge, (2) clarify instructions for
preparation of Materials Usage Agreements, and (3) increase surveillance of the contractor’s safety
office inspection procedures. NASA concurred with each recommendation and implemented a
number of procedures to control all noncompliant materials.

“Safety Considerations at Goddard Space Flight Center,” Report Number
IG-99-047, September 22, 1999. While conducting a broad evaluation of NASA’s safety
program, we identified issues requiring immediate management attention that could affect the safety
of Goddard Space Flight Center (Goddard) employees. Specifically, we determined that (1)
Goddard's various safety offices were not consolidated into one organization with a full-time
director; (2) the mishap reporting process did not ensure that the causes of all mishaps were
properly addressed and that all mishaps and related information were adequately reported; and (3)
contractor's safety records were not evaluated prior to contract award, as required by the NASA
Safety Manual. We recommended that the Goddard Center Director (1) evaluate the effectiveness
of the ongoing safety initiatives, (2) ensure that all mishaps are reported accurately and in a timely
manner and that the root causes are identified, and (3) establish procedures for reviewing contractor
safety records before contract award. Management concurred with each recommendation.




                                                  18
Appendix C. Materials Testing, Approval, and Control Requirements

The following policies are applicable to NASA’s requirements for testing, using, and controlling
plastic films, foams, and adhesive tapes:

NASA Space Transportation System 08242, “Limitations for Non-flight Materials and
Equipment Used In and Around the Space Shuttle Orbiter Vehicles,”
(NSTS 08242) Revision A, May 6, 1994. This standard contains lists of non–flight materials and
equipment approved for use as well as materials prohibited for use in and around the orbiter
vehicles. The standard also defines the NASA responsibilities for control of the specified materials
and equipment and establishes a procedure for effecting temporary or permanent changes to the
approved materials and equipment lists contained therein. Specifically, paragraph 4.1 of the
standard states that a United Space Alliance (USA) Materials and Process (M&P) representative
shall prepare a Material/Equipment Usage Permit (Material Use Permit) when a requesting engineer
wishes to use an unapproved PFA in and around the orbiters.

                Where circumstances dictate, materials and equipment not on the approved
                lists or quantities in excess of those specified may be used on a temporary
                basis by means of a MUP [Material Use Permit].


NASA-STD-6001, “Flammability, Odor, Offgassing, and Compatibility Requirements and
Test Procedures for Materials in Environments that Support Combustion,” February 9,
1998. This standard establishes requirements for evaluation, testing, and selection of materials that
are intended for use in space vehicles, associated ground support equipment, and facilities used
during assembly, test, and flight operations. Materials intended for use in these situations must meet
the requirements of this document. The intent of the standard is to preclude unsafe conditions
related to flammability, odor, offgassing, and fluid compatibility. The standard requires, at a
minimum, tests of materials for flammability resistance.

                Materials used in habitable areas of spacecraft, including the materials of the
                spacecraft, stowed equipment, and experiments, must be evaluated for
                flammability, odor, and offgassing characteristics. All materials used in
                other areas must be evaluated for flammability characteristics [emphasis
                added].


The standard further supports required risk assessments prior to the use of untested materials,
specifically:

                Systems containing materials that have not been tested or do not meet the
                criteria of the required tests must be verified to be acceptable in the use
                configuration by analysis or testing.


KSC [Kennedy Space Center]-LO-8060.1, “KSC [Kennedy Space Center] Materials
Processes and Control Program,” July 15, 1997. This document establishes the policy and
steps to be followed by all organizational elements at Kennedy in the selection of



                                                      19
Appendix C

materials. Section 2.3 states that the Director of the Kennedy Safety and Mission Assurance
organization is responsible for ensuring that only approved materials are used, including those used
by contractors. Furthermore, the document states that engineers are responsible for selecting
materials to be used in and around the orbiter vehicles in accordance with NSTS 08242. The
document also identifies the Kennedy Materials Science Lab, a branch of the Materials Science
Division, as the organization responsible for materials testing at Kennedy.

Kennedy Handbook 1710.2, “Kennedy Space Center Safety Practices Handbook,”
Revision D, November 1, 1998. The purpose of the handbook is to establish consolidated safety
requirements to define the parameters and boundaries required during design, operations, and
maintenance activities at Kennedy. The provisions of the handbook apply to all organizational
elements at Kennedy, to their associated contractors and subcontractors, and to other Government
agencies and their contractors operating at Kennedy. The handbook requires that when an
organization cannot meet a safety requirement, it shall provide a request for a variance to the
Kennedy Safety Office.29 Chapter 7, “Use of Plastic Films and Adhesive Tapes in Space
Shuttle/Payload Processing Areas,” contains provisions for use and testing of materials in and
around the orbiters. The chapter states, “Adhesive tapes and plastic films used in Kennedy Space
Center flight hardware processing facilities shall only be used for operations where they meet the
acceptance criteria for their specified use.” The chapter further states that current, approved
adhesive tape and plastic film lists are maintained by the Kennedy Materials Science Lab and are
available by accessing the Materials Science Division's Intranet.

Kennedy Handbook 1700.7, “Space Shuttle Payload Ground Safety Handbook,” Revision
C, August 19, 1999. The handbook aligns existing Department of Defense and NASA ground
safety criteria and establishes requirements for ground processing of Shuttle payloads and
associated ground support equipment. Section 4.3.9, “Ground Support Equipment Materials,”
pertains to the approval, use, and control of PFA’s by stating that flammable materials and static-
producing materials shall be kept to a minimum in all payload-processing areas. Furthermore,
plastic films shall be selected from the Launch Site Safety Office approved plastics list. The
organization wishing to use a plastic film that is not on the approved list must submit to the Launch
Site Safety Office a sample of the material for test/evaluation and approval.




29
  Kennedy Handbook 1710.2, Chapter 1, Section 106, "Variances,” states that when a requirement of the
Handbook cannot be met, an organization shall request a variance from the Director, Safety and Mission
Assurance. Although Section 106 does not specifically state that the Kennedy Director of Safety and Mission
Assurance shall approve the variance, Section 103 states that the Kennedy Center Director has tasked the
Director, Safety and Mission Assurance to ensure compliance with the Kennedy safety program. Under
Kennedy’s recent reorganization, the Office of Director, Safety and Mission Assurance no longer exists and has
been replaced by the Associate Director, Safety and Mission Assurance under the Safety, Health and
Independent Assessment Directorate.


                                                      20
                                                                                                                      Appendix C

                Use of flammable materials and static-producing materials shall be kept to a
                minimum in all payload-processing areas. If any plastic film is to be used,
                the material shall be selected from the LSSO [Launch Site Safety Office]
                approved plastics list. . . . If a plastic film is not on the approved list, a
                sample (minimum 1 square yard) shall be submitted to the LSSO for
                test/evaluation and approval.


USA’s Ground Safety Operating Procedures (GSOP) 5400, Revision C, January 20, 2000.
As stated in the introduction to Volume I of GSOP 5400, Revision C, “supplements Kennedy
Space Center Safety, Reliability, Maintainability, and Quality Assurance Programs, and Kennedy
Handbook 1710.2, “Kennedy Space Center Safety Practices Handbook” where necessary.”
Furthermore, the document establishes safety policies and procedures required during operations
and maintenance activities at USA-designated areas of Kennedy. Appendix I states that current
approved adhesive tape and plastic film lists are maintained by the Kennedy Materials Science Lab
and are available by accessing the Materials Science Division's Intranet. In addition, the appendix
states:

                Adhesive tapes and plastic films used in Kennedy flight hardware
                processing facilities shall only be used for operations where they meet the
                acceptance criteria for their specified use.


Revision C of USA’s GSOP 5400, Section 2.21, “Use of Flame Retardant, Anti-static Plastic
Films/Tapes in STS [Space Transportation System]/Payload Processing Areas,” states:

                All thin plastic films and adhesive tapes used in the STS and Payload areas must be approved by the
                Kennedy Space Vehicle Safety and Reliability Division. The listing source for safety-approved
                plastic films and adhesive tapes for unrestricted and restricted use appears in Appendix I of this
                volume. Use of thin plastic film or adhesive tape other than those listed for controlled use, will
                depend on a safety assessment of testing results and use application.


GSOP 5400 further provides that organizations desiring to modify the list of approved PFA’s must
submit a safety assessment to the Kennedy Safety Office. Sections 2.21.1 and 2.21.2 state that the
required safety assessment should consist of tests that measure the material’s safety characteristics.
Specific measurements shall include flammability resistance, ESD rate, and hypergolic compatibility.

USA’s Standard Practice Instruction, SP-001(2)K, “Nonflight Materials and Equipment
Control During Orbiter Ground Operations,” August 17, 1999. The purpose of this document
is to implement material and equipment requirements and limitations stated in NSTS 08242, provide
control procedures for ground operations, and describe the method to process Material Use
Permits for temporary or permanent changes to existing materials and equipment lists. Specifically,
the document states that if a




                                                                21
Appendix C

material is not in the NSTS 08242 list of approved materials and is required for performing work,
requestors must obtain usage approval from a USA M&P engineer. As stated in Section 6.3, USA
M&P engineers are responsible for (1) approving or disapproving Material Use Permits and (2)
determining whether the Material Use Permit involves hazardous materials. 30 M&P engineers are
required to submit Material Use Permits to USA’s Safety Office for concurrence only if hazardous
materials are involved. This document does not require a requesting organization to prepare a risk
assessment.

USA’s Standard Practice Instruction, SP-003(2)K, “Nonflight Materials and Equipment
Control During External Tank/Solid Rocket Booster Operations,” March 2, 1999. The
purpose of this document is to specify nonflight materials and equipment requirements and limitations
and to provide procedures for controlling materials and equipment in and around the external tank
and solid rocket boosters during ground operations. The document states that any use of plastic
sheet materials and tapes and spark- or heat-producing devices in and around the external tank and
solid rocket boosters is to comply with GSOP 5400 requirements.

USA’s Standard Practice Instruction, SF-507(8)K, “Safety Variances,”
December 14, 1999. This document establishes responsibilities and procedures for requesting,
processing, and approving safety variances. The document requires that when an organization
cannot meet an established safety requirement, the organization should request a temporary safety
variance from both the Kennedy and USA Safety Offices. The request for the safety variance must
include a detailed risk assessment that will be reviewed and approved by both the Kennedy and
USA Safety Offices.




30
 Materials may be hazardous due to flammability, ignition source, toxicity, corrosion, or chemical reaction.
Hazardous materials may also involve limitations on their use such as location, quantity, proximity to other
materials or heat sources, need for protective equipment, or provisions for monitoring or handling.


                                                       22
               Appendix D. Examples of PFA Usage In and Around the Orbiter Vehicles




ACLAR
plastic film


RE22 tape




                       Figure D-3. ACLAR plastic film11 covering LO2 17” disconnect and adhered to Orbiter Vehicle-105
                       with RE22 tape,22 October 17, 2000.

               1
                A United Space Alliance (USA) Materials and Process (M&P) engineer specialist identified this material as
               ACLAR plastic film. The Kennedy Materials Science Lab has tested ACLAR, 22A, 22C, and 33C. The film
               passed flammability tests, but based on the results of the electrostatic discharge (ESD) rate test, Kennedy
               determined that ACLAR is not permitted where ESD buildup or discharge is required to be minimal. Also, the lab
               cautions users to consider the material’s hypergol (rocket fuel) compatibility (the material’s reaction when
               exposed to hypergols) prior to use near hypergolic fuels. ACLAR plastic film is included in Appendix C of NSTS
               08242, “Limitations for Non-flight Materials and Equipment Used In and Around the Space Shuttle Orbiter
               Vehicles,” as approved for general use in and around the orbiter vehicles. However, its usage is limited to
               covering line connections and line closures and wrapping leaking hydraulic lines. Marshall’s Materials and
               Processes Technical Information System (MAPTIS) contained flammability, flash/fire, mechanical impact, and
               toxicity test data for ACLAR 22A. MAPTIS also contained flammability and mechanical impact test data for
               ACLAR 22C. However, the test results do not clearly state whether these films passed or failed. MAPTIS
               contained no test data for ACLAR 33C.

               2
                 A USA M&P engineer specialist identified this material as RE22 tape. The Kennedy Materials Science Lab has
               not tested RE22 tape, and the lab has not received a request for testing. As a result, this tape is not on the lab’s
               list of approved PFA’s. The tape is also not in Appendix C of NASA Standard 08242, “Limitations for Non-flight
               Materials and Equipment Used In and Around the Space Shuttle Orbiter Vehicles,” (NSTS 08242) as approved
               for general use in and around the orbiter vehicles, and there is no current Material Use Permit approving the use
               of RE22 tape. MAPTIS contained no test data for this tape.




                                                                        23
                                                                                                    tape




Appendix D
                                                                                                               Figure
                                                                                                               D-4.




        Lectrolite Duotone green/black plastic film11 held to Orbiter Vehicle-105 Orbital Maneuvering System
        pod by 3M 363 tape,22 October 17, 2000.



1
  A USA M&P engineer specialist identified this material as Lectrolite Duotone green/black plastic film. The
Kennedy Materials Science Lab has tested this film. The film passed flammability resistance, ESD rate,
hypergolic ignition, and breakthrough resistance tests and is approved for use in all Kennedy flight hardware
processing facilities. The USA M&P engineer specialist stated that Lectrolite Duotone green/black film has the
same properties as Lectrolite Duotone blue/black film. However, in April 1996, USA requested and Kennedy
approved a safety variance for this material, stating that it consistently failed flammability tests. Lectrolite plastic
film is included in Appendix C of NSTS 08242 as approved for general use in and around the orbiter vehicles, and
there are no limitations on its usage. MAPTIS contained no test data for Lectrolite film.

2
  A USA M&P engineer specialist identified this material as 3M 363 tape. The Kennedy Materials Science Lab
has tested the tape. The tape passed flammability resistance, ESD rate, and hypergolic compatibility tests and is
approved for use in all Kennedy flight hardware processing facilities. The 3M 363 tape is not included in
Appendix C of NSTS 08242 as approved for general use in and around the orbiter vehicles. MAPTIS contained
flammability, flash/fire, toxicity, odor, thermal vacuum stability, and cure test data for Scotch 363 tape. Scotch is
a registered trademark of the 3M Company.




                                                          24
                                                                                                                  Appendix D



                                                                                                                        Figure




Foam on
orbiter wing




                                                                                                                        D-5.
                                                                                                                        Ensolite
                                                                                                                        natural
                                                                                                                        foam**



                      covering wing of Orbiter Vehicle-105, October 17, 2000.


               *
                A USA M&P engineer specialist identified this material as Ensolite natural foam. The Kennedy Materials
               Science Lab has tested this foam. The foam passed flammability tests, but is not permitted where electrostatic
               buildup or discharge is required to be minimal. The lab also cautions users to consider the foam’s test reaction
               to hypergols (rocket fuel) prior to use near hypergolic fuels. Ensolite foam is included in Appendix C of NSTS
               08242 as approved for general use in and around the orbiter vehicles. MAPTIS contained flammability, flash/fire,
               toxicity, odor, and thermal vacuum stability test data for Ensolite foam. However, the test results do not clearly
               state whether these films passed or failed.




                                                                      25
                              Appendix E. Material Test Results
                           Marshall Material and
                            Processes Technical
         Material &    Information System (MAPTIS)
No.     Manufacturer             Test Data                                  Audit Observations

      Plastic Films
1     Saran 8          No test data available through     Listed in Appendix C of NASA Standard 08242,
      Dow Chemical     MAPTIS.                            “Limitations for Non-flight Materials and Equipment Used
                                                          In and Around the Space Shuttle Orbiter Vehicles,” (NSTS
                                                          08242) as approved for general use. Not tested by the
                                                          Kennedy Materials Science Lab. The lab has not received
                                                          a request for testing.
      Foams
2     Eccosorb AN-73   MAPTIS contained thermal           Listed in Appendix C of NSTS 08242 as approved for
      Emerson &        vacuum stability test data only    general use. Not tested by the Kennedy Materials Science
      Cummings         for Eccosorb AN series foam.       Lab. The lab has not received a request for testing.
                       No flammability data available.

3     Eccosorb AN-77   MAPTIS contained thermal           Listed in Appendix C of NSTS 08242 as approved for
      Emerson &        vacuum stability test data only    general use. Not tested by the Kennedy Materials Science
      Cummings         for Eccosorb AN series foam.       Lab. The lab has not received a request for testing.
                       No flammability data available.

4     Omar 100         No test data available through     Listed in Appendix C of NSTS 08242 as approved for
      Unavailable      MAPTIS.                            general use. Not tested by the Kennedy Materials Science
                                                          Lab. The lab has not received a request for testing.

5     Polyfoam 2060    No test data available through     Listed in Appendix C of NSTS 08242 as approved for
      (BIR-60-E)       MAPTIS.                            general use. Not tested by the Kennedy Materials Science
      Unavailable                                         Lab. The lab has not received a request for testing.

      Adhesive Tapes
6     L-T-80           No test data available through     Listed in Appendix C of NSTS 08242 as approved for
      Unavailable      MAPTIS.                            general use. Not tested by the Kennedy Materials Science
                                                          Lab. The lab has not received a request for testing.

7     3M 4008          No test data available through     Listed in Appendix C of NSTS 08242 as approved for
      3M Co.           MAPTIS.                            general use. Not tested by the Kennedy Materials Science
                                                          Lab. The lab has not received a request for testing.

8     3M 4046Y         No test data available through     Listed in Appendix C of NSTS 08242 as approved for
      3M Co.           MAPTIS.                            general use. Not tested by the Kennedy Materials Science
                                                          Lab. The lab has not received a request for testing.




                                                         26
                                                                                                              Appendix E

         Material &
No.     Manufacturer          MAPTIS Test Data                                   Audit Observations
 9    3M 4408          MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      3M Co.           flammability and flash/fire test       general use. Not tested by the Kennedy Materials Science
                       data for Scotch 4408 tape, a           Lab. The lab has not received a request for testing.
                       registered trademark of 3M Co.

10    Permacel 222     MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      Permacel/Nitto   flammability, toxicity, and            general use. Not tested by the Kennedy Materials Science
      Denko            thermal vacuum stability test          Lab. The lab has not received a request for testing
                       data.

11    CHR K-250        No test data available through         Listed in Appendix C of NSTS 08242 as approved for
      Unavailable      MAPTIS.                                general use. Not tested by the Kennedy Materials Science
                                                              Lab. The lab has not received a request for testing.

12    CHR K-350        No test data available through         Listed in Appendix C of NSTS 08242 as approved for
      Unavailable      MAPTIS.                                general use. Not tested by the Kennedy Materials Science
                                                              Lab. The lab has not received a request for testing.

13    Permacel 252     MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      Permacel/Nitto   flammability, flash/fire, toxicity,    general use. Not tested by the Kennedy Materials Science
      Denko            odor, thermal vacuum stability,        Lab. The lab has not received a request for testing.
                       and cure test data.
14    CHR M66          No test data available through         Listed in Appendix C of NSTS 08242 as approved for
      Unavailable      MAPTIS.                                general use. Not tested by the Kennedy Materials Science
                                                              Lab. The lab has not received a request for testing.

15    Mystik 6402      No test data available through         Listed in Appendix C of NSTS 08242 as approved for
      Allied Signal    MAPTIS.                                general use. Not tested by the Kennedy Materials Science
                                                              Lab. The lab has not received a request for testing.

16    3M 800           MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      3m Co.           flammability, toxicity, and odor       general use. Not tested by the Kennedy Materials Science
                       test data for Scotch 800 tape, a       Lab. The lab has not received a request for testing.
                       registered trademark of 3M Co.

17    3M 4016          MAPTIS contained toxicity test         Listed in Appendix C of NSTS 08242 as approved for
      3M Co.           data for Scotch 4016 tape, a           general use. Not tested by the Kennedy Materials Science
                       registered trademark of 3M Co.         Lab. The lab has not received a request for testing.




                                                             27
Appendix E

          Material &
No.      Manufacturer   MAPTIS Test Data                                          Audit Observations
 18   Mystik 7503       MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      Allied Signal     flammability, flash/fire, toxicity,    general use. Not tested by the Kennedy Materials Science
                        odor, thermal vacuum stability,        Lab. The lab has not received a request for testing.
                        and cure test data.
 19   Mystik 7505       No test data available through         Listed in Appendix C of NSTS 08242 as approved for
      Allied Signal     MAPTIS.                                general use. Not tested by the Kennedy Materials Science
                                                               Lab. The lab has not received a request for testing.

 20   Mystik 7510       No test data available through         Listed in Appendix C of NSTS 08242 as approved for
      Allied Signal     MAPTIS.                                general use. Not tested by the Kennedy Materials Science
                                                               Lab. The lab has not received a request for testing.

 21   3M 60             MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      3M Co.            flammability, toxicity, odor, and      general use. Not tested by the Kennedy Materials Science
                        thermal vacuum stability test          Lab. The lab has not received a request for testing.
                        data for Scotch 60 tape, a
                        registered trademark of 3M Co.

 22   3M 61             MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      3M Co.            flammability, flash/fire,              general use. Not tested by the Kennedy Materials Science
                        mechanical impact, toxicity,           Lab. The lab has not received a request for testing.
                        odor, and thermal vacuum
                        stability test data for Scotch 61
                        tape, a registered trademark of
                        3M Co.

 23   3M 62             MAPTIS contained                       Listed in Appendix C of NSTS 08242 as approved for
      3M Co.            flammability, toxicity, odor,          general use. Not tested by the Kennedy Materials Science
                        thermal vacuum stability, and          Lab. The lab has not received a request for testing.
                        cure test data for Scotch 62
                        tape, a registered trademark of
                        3M Co.

 24   CHR HM-650        No test data available through         Listed in Appendix C of NSTS 08242 as approved for
      Unavailable       MAPTIS.                                general use. Not tested by the Kennedy Materials Science
                                                               Lab. The lab has not received a request for testing.

 25   RB0159-002        No test data available through         Not tested by the Kennedy Materials Science Lab. The
      Unavailable       MAPTIS.                                lab has not received a request for testing. Material Use
                                                               Permit 94-007, dated June 27, 1994, specified use limited to
                                                               aft fuselage and exterior use.




                                                              28
                                                                                                                      Appendix E

          Material &
No.      Manufacturer        MAPTIS Test Data                                         Audit Observations
 26   Mystik 7367            MAPTIS contained                      Not tested by the Kennedy Materials Science Lab. The
      Allied Signal          flammability, flash/fire, volatile    lab has not received a request for testing. Material Use
                             condensable material, toxicity,       Permit 95-013, dated June 14, 1995, specified use limited to
                             odor, thermal vacuum stability,       payload.
                             and cure test data.

 27   Permacel P-670         MAPTIS contained                      Not tested by the Kennedy Materials Science Lab. The
      Permacel/Nitto         flammability, toxicity, and           lab has not received a request for testing. Material Use
      Denko                  thermal vacuum stability test         Permit 97-006, dated March 12, 1997, specified use limited
                             data.                                 to crew compartment only.

 28   Kalex 15036            No test data available through        Not tested by the Kennedy Materials Science Lab. The
      urethane adhesive      MAPTIS.                               lab has not received a request for testing. Not a true tape,
      Unavailable                                                  but an adhesive substance used to seal the nozzle vented
                                                                   tube plug for processing and post landing leak checks.
                                                                   Kennedy and USA safety officials signed Material Use
                                                                   Permit 00-010, approving Kalex polyurethane adhesive,
                                                                   because its use poses potential hazards such as eye, skin,
                                                                   respiratory tract, and lung irritation.

 29   Mystik 7000            MAPTIS contained                      Observed in use on the tile near the landing gear of Orbiter
      Allied Signal          flammability, toxicity, and           Vehicle-105. Not tested by the Kennedy Materials Science
                             thermal vacuum stability test         Lab. The lab has not received a request for testing. NSTS
                             data.                                 08242 references specification ML0601-9024, which
                                                                   controls operations for the orbiter’s thermal protection
                                                                   system. ML0601-9024 authorizes the use of this material
                                                                   only in such operations.

 30   RE22                   No test data available through        Observed in use on Orbiter Vehicle-105. Not tested by the
      Unavailable            MAPTIS.                               Kennedy Materials Science Lab. The lab has not received
                                                                   a request for testing. Not listed in Appendix C of NSTS
                                                                   08242 as approved for general use.

 31   Armalon                MAPTIS contained                      Observed in use on Orbiter Vehicle-105. Not tested by the
      Fairprene Industrial   flammability, flash/fire,             Kennedy Materials Science Lab. The lab has not received
      Products               mechanical impact, toxicity,          a request for testing. NSTS 08242 references specification
                             odor, and thermal vacuum              ML0601-9024, which controls operations for the orbiter’s
                             stability test data for one           thermal protection system.
                             material matching the                 ML0601-9024 authorizes the use of this material only in
                             designation of Armalon and            such operations.
                             only mechanical impact test
                             data for a second material
                             named Armalon. Both materials
                             are manufactured by Fairprene
                             Industrial Products.




                                                                  29
Appendix F. Management’s Response




               30
                       Appendix F




See Appendix G,
OIG Comment 1


See Appendix G,
OIG Comment 2



See Appendix G,
OIG Comment 3




See Appendix G,
OIG Comment 4

See Appendix G,
OIG Comment 5

See Appendix G,
OIG Comment 6




                  31
Appendix F




                  See Appendix G,
                  OIG Comment 7




             32
                       Appendix F




See Appendix G,
OIG Comment 8




See Appendix G,
OIG Comment 9




                  33
Appendix F




                  See Appendix G,
                  OIG Comment 10




                  See Appendix G,
                  OIG Comment 11




             34
                       Appendix F




See Appendix G,
OIG Comment 12




See Appendix G,
OIG Comment 13




See Appendix G,
OIG Comment 14




                  35
Appendix F




                  See Appendix G,
                  OIG Comment 15

                  See Appendix G,
                  OIG Comment 16




                  See Appendix G,
                  OIG Comment 17




             36
     Appendix F




37
Appendix F




             38
            Appendix G. Office of Inspector General Comments on
                         Management’s Response

John F. Kennedy Space Center (Kennedy) management provided the following comments in
response to the draft report. Our responses to the comments are also presented.

Management's Comment. The draft report includes a flowchart for the use of plastic films,
foams, and adhesive tapes in and around the orbiters. Kennedy enclosed (see Appendix F) for our
consideration and inclusion in the report, a process flowchart that depicts the process that is defined
in NASA Standard 08242, “Limitations for Non-flight Materials and Equipment Used In and
Around the Space Shuttle Orbiter Vehicles,” (NSTS 08242).

1. Office of Inspector General (OIG) Comments. The process flowchart in the body of the
audit report (page 4) reflects our understanding of the process flow for the safe use of PFA’s in and
around the orbiter as required by the Space flight Operations Contract (SFOC) and NASA and
Kennedy policies on the testing and control of PFA’s. The process flow as depicted in
management’s flowchart does not completely meet SFOC requirements because (1) there is no
testing data and results available for many of the materials listed in NSTS 08242 and (2) the
Materials and Processes (M&P) engineer’s decision as to whether a material would be used in a
hazardous operation did not include input from a safety engineer.

Management’s Comment. Kennedy’s review of the materials listed in the draft report
determined that all of them were used safely and that all were authorized for ground processing
usage by the Shuttle Program in NSTS 08242.

2. OIG Comments. Although management responded that it used all of the listed materials safely,
that was not the case during our audit field work. We identified 30 materials that United Space
Alliance (USA) was using in and around the orbiter vehicles for which there was no record of
testing data or Safety Office review and approval. On February 5, 2001, we presented this
information to the Kennedy Director of Shuttle Processing to share with his staff. When we met
with the Kennedy Director of Shuttle Processing on February 15, 2001, he did not know whether
USA used the materials safely but stated that he would have to perform further research. More
than 4 months later, management concluded that USA used the materials safely. However,
Kennedy was unable to present any evidence of materials testing from any NASA Center or test
facility. In our opinion, management should know at all times whether USA is safely using materials
in or around the orbiter vehicles. There should be a clear audit trail of testing data, safe use
requirements, and authorization for every material used in and around the orbiters. We found that
no such audit trail existed.




                                                  39
Appendix G

Management’s Comment. Some of the report’s conclusions were based on the premise that a
material cannot be used in and around the orbiter if that material fails any of the material tests.

3. OIG Comments. We take exception to management's statement. The report clearly states that
“Materials that meet NASA standards are placed on approved lists. Materials that do not meet
those standards can be used only after obtaining a Materials/Equipment Usage Permit (Material Use
Permit) or a safety variance, both of which require USA and Kennedy safety office approval.”

Management’s Comment. Much is noted in the report about fire, static control, and hypergolic
protection for catastrophic prevention purposes.

4. OIG Comment. The report discusses two fires involving PFA’s in Kennedy’s Shuttle
processing facilities in order to illustrate the potential effect of inadequate control of PFA’s and the
need for strong safety requirements. In addition to the two fires discussed in the report, another
incident occurred in April 2001 in the Orbiter Processing Facility that provides further evidence of
the need for improved fire and static control. According to the USA incident report on the April
2001 incident, vapors from a bottle containing a waterproofing agent ignited and could have caused
serious injury to processing personnel and/or significant damage to major essential flight elements.
The incident investigation team determined that a root cause of the incident was the use of materials
that had a high potential for electrostatic discharge (ESD).

Management’s Comment. Fire (flammability) control is performed through material sensitivity
regulation rather than restraint of the resultant flame propagation.

5. OIG Comment. This statement conflicts with NASA and USA requirements. Both NASA
and USA standards indicate that control of flame propagation must also be considered. NASA
Technical Standard 6001, “Flammability, Odor, Offgassing, and Compatibility Requirements and
Test Procedures for Materials in Environments that Support Combustion (NASA-STD-6001),"
requires the upward flame propagation test on all materials used in space vehicles, ground support
equipment, and facilities used during assembly, test, and flight operations. NASA-STD-6001 states
that the purpose of the upward flame propagation test is, “to determine if a material, when exposed
to a standard ignition source, will self-extinguish and not transfer burning debris, which can ignite
adjacent materials.” USA also acknowledged the need to control flame propagation of PFA’s by
stating in its Ground Safety Operating Procedures (GSOP) 5400, Revision D, “If a flammable
adhesive tape is used to join two thin sheets of plastic that meet flammability requirements, and if the
tape accidentally ignites, it (and its adhesive) can act as a path to quickly propagate the flame from
one edge to the other of the normally self-extinguishing plastic film.”




                                                   40
                                                                                           Appendix G

Management’s Comment. The materials identified in the report’s photographs are authorized for
the specific use shown in those photographs because they meet functionality requirements for the
particular application, and the appropriate program safety office had reviewed their selection at the
time.

6. OIG Comment. Neither the Armalon fabric nor the Mystik 7000 tape shown in Figure 2 of the
report are on the Kennedy Materials Science Lab's list of approved materials and are not included
in Appendix C of NSTS 08242 as approved for general use in and around the orbiter vehicles.
USA did not obtain a Material Use Permit allowing the use of either material, and there was no
record of either USA or Kennedy Safety office approval for either material.

The Kennedy Materials Science Lab had not tested the RE22 tape shown in Figure D-3. The tape
is not in Appendix C of NASA Standard 08242 as approved for general use in and around the
orbiter vehicles, and there is no current Material Use Permit approving the use of RE22 tape.
MAPTIS contained no test data for this tape and there was no record of either USA or Kennedy
Safety office approval for the RE22 tape.

Management’s Comment. Even though laboratory tests of Mystik 7000 tape and Armalon
indicate a static (ESD) generation concern, in this particular application, there is no static concern.

7. OIG Comment. The Mystik 7000 tape failed ESD testing and was cited as a contributing
cause to a fire in the Kennedy Orbiter Processing Facility. When we took the photograph of the
Mystik 7000 tape, there were no documented procedures/ restrictions in place and authorized by
either NASA or USA safety personnel to ensure the safe use of the material. The material was not
listed in NSTS 08242 or approved through a Material Use Permit or safety variance.

Management’s Comment. USA uses Standard Practice Instructions to identify to the workforce
the requirements and processes used during Shuttle processing.

8. OIG Comment. The OIG is aware of the separate requirements for using a Material Use
Permit as opposed to a variance. However, as stated in the report, USA’s procedures were
unclear regarding when one process is more appropriate than the other. In fact, we found at least
one example of issuance of both a Material Use Permit and a safety variance for the same material
(Fromelt Saf-T-Vu plastic film). Details on this example are provided in footnote 18 of the report.
By not consistently applying the Material Use Permit and variance process, USA did not always
obtain safety office approval and did not prepare risk assessments to support its decisions to use
unapproved materials in Kennedy's Space Shuttle processing facilities. Only the USA Materials
and Processes




                                                   41
Appendix G

(M&P) engineer specialist determined whether the proposed use of a material posed a hazard. The
M&P engineer specialist did not seek Kennedy or USA Safety Office involvement unless he
determined that hazards were present.

In addition, Material Use Permits did not always provide specific instructions and restrictions for the
use of PFA’s that did not meet NASA requirements. For example, on March 18, 1996, the
Kennedy Materials Sciences lab tested Kydex 100 thermoplastic sheets, and the material failed the
ESD test. Although USA issued a Material Use Permit for Kydex 100 on January 24, 2000, the
Material Use Permit log did not include any
special instructions to ensure that the material is used only when ESD is not a concern. USA should
have clear, uniform procedures defining when it is appropriate to use a Material Use Permit or a
variance to ensure that all materials are used safely.

Management’s Comment. Although NSTS 08242 and the USA material use process does not
require USA or NASA safety engineers to review and approve all Material Use Permits, the USA
safety engineer reviews all permits.

9. OIG Comment. Management did not provide support for this statement. The USA M&P
engineer specialist responsible for preparing the Material Use Permits stated that he asks for safety
engineer review only when he determines that the materials will be used in a hazardous operation.
Our review of the Material Use Permit file supported the USA M&P engineer’s statement.
Specifically, we found a safety engineer’s signature only on the Material Use Permits for materials
the engineer specialist determined would involve hazardous operations.

Management’s Comment. During the audit, it was discovered that the PFA section of GSOP
5400 needed to be updated to reflect NASA and USA roles and responsibilities.

10. OIG Comment. This statement is not factual. USA was not complying with its own safety
procedures regarding the use and control of PFA’s. When we brought this noncompliance to the
attention of USA management during the audit, USA changed procedures concerning PFA's rather
than comply with established testing and safety assessment requirements.

USA safety and M&P personnel stated that they were unaware of any NASA requirement that
USA have all PFA’s tested for flammability resistance, ESD rate, and hypergolic compatibility prior
to general-purpose use in and around the orbiter vehicles. Those personnel told us that USA’s
position on PFA testing was that USA needed to test a PFA only for those hazards (flammability,
ESD rate, hypergolic compatibility) that could be reasonably expected based on the specific use of
each PFA. Furthermore, the USA M&P engineer specialist told us that he was unaware that the
GSOP 5400 required USA to perform all three tests on all PFA’s before use.




                                                  42
                                                                                            Appendix G

We subsequently met with USA safety and M&P personnel and gave them section 2.21 (pages 2-
50 through 2-52) of GSOP 5400, which states that all thin plastic films and adhesive tapes used in
the Space Transportation System (STS) and Payload areas must be approved by the Kennedy
Space Vehicle Safety and Reliability Divisions of the Kennedy Safety Office. In addition, Section
2.21 states that the use and approval of a thin plastic film or an adhesive tape “depends on the
results of its safety assessment. This assessment consists of tests which measure safety
characteristics.” Furthermore, Section 2.21 states, “Specific measurements are flammability,
electrostatic discharge rate, and hypergolic . . . compatibility.”

In response, the USA safety and M&P personnel stated that this particular section of GSOP 5400
could be confusing and could be interpreted incorrectly. The USA safety engineer stated that
before the Space Flight Operations Contract (SFOC) was signed, GSOP 5400 was a NASA
document and that, since USA had taken over ground operations of the Shuttle program, USA
management has gradually altered the document to suit its needs. Section 2.21 was one section of
the original NASA document that USA had yet to change to reflect its actual operating procedures.
USA would revise Section 2.21 to better reflect current operational procedures regarding use and
testing of PFA’s. However, during the audit, we found that USA quoted this section of GSOP
5400 in preparing a March 2000 safety variance for Lectrolite Duotone green/black film.

The USA safety engineer subsequently provided the revised sections of GSOP 5400 to the audit
team. The revised GSOP 5400 omitted the two sections that required risk assessments, including
tests of flammability resistance, ESD rate, and hypergolic compatibility, prior to using all plastic films
and adhesive tapes. USA’s rationale for the change stated only that, “Redlines are necessary to
clarify existing policies per NASA OIG audit.”

Management’s Comment. USA has the authority to change its “how to” policy documents
without NASA approval, as long as USA does not violate a higher level NASA safety requirement.

11. OIG Comment. This statement is not completely correct. According to Kennedy Shuttle
Safety Office officials, USA had the authority to change its “how to” policy documents without
NASA approval, as long as USA did not violate a higher level NASA safety requirement or
increase risk. In our opinion, omitting a requirement to perform risk assessments on PFA’s prior to
their use, including tests of flammability resistance, ESD rate, and hypergolic compatibility, increases
risk. USA should have promptly brought this change to the attention of the Kennedy Shuttle Safety
Office.

Management’s Comment. For PFA materials used in a hazardous environment, NASA safety
and mission assurance engineers are involved in the approval process.




                                                    43
Appendix G

12. OIG Comment. Our concern, as detailed in the report, is the method for making the
determination of hazardous use or whether a material is hazardous. We determined that only one
individual, the USA M&P engineer specialist (not a safety engineer), determined whether the
proposed use of the material posed a hazard. The M&P engineer did not seek
Kennedy or USA Safety Office involvement and did not submit the material to the Kennedy
Materials Science Lab for testing unless the engineer specialist determined that hazards were
present. In contrast, Kennedy Shuttle Safety office personnel stated that they believed (1) USA
submitted all Material Use Permits to the Kennedy Shuttle Safety Office for approval, no matter
how the materials were to be used, and that (2) at a minimum, USA had all new and previously
unapproved PFA’s tested for flammability resistance to establish whether the material itself may be
hazardous. In our opinion, and as reflected in this report, the Kennedy Shuttle Safety Office should
make the determination as to whether potential hazards are present in operations that involve
PFA’s.

Management’s Comment. Currently, NASA Shuttle M&P and Safety engineers perform
surveillance of procedures and task execution activities assessing the proper use of materials and the
implementation of safety requirements.

13. OIG Comment. In our opinion, the surveillance the NASA Shuttle M&P and Safety
engineers perform can be improved. Specifically, Kennedy Shuttle Safety Office personnel were
unaware that (1) the USA M&P engineer specialist frequently approved Material Use Permits
without consulting either the USA or Kennedy Shuttle Safety Offices, (2) USA did not have the
Kennedy Materials Science Lab test all PFA’s, and (3) USA made significant changes to its
materials safety procedures. Further, Kennedy Shuttle Safety Office personnel erroneously
believed that, at a minimum, USA tests all new, unapproved PFA’s for flammability resistance.

Management’s Comment. Kennedy and the Space Shuttle Program recognize NSTS 08242 as
the approved list of PFA’s approved for use in and around the orbiter vehicles.

14. OIG Comment. Management’s statement conflicts with the requirements referenced in the
SFOC. NSTS 08242 and the Kennedy Materials Science Lab often differ on whether a material is
approved for use in and around the orbiter. Although Kennedy stated that NSTS 08242 is the list
of PFA’s approved for use in and around the orbiter vehicles, that was not the case during the audit.
Specifically, we identified several, often conflicting, sources of approved materials and requirements
regarding material selection, testing, and control. For example, Appendix I of USA’s GSOP 5400
and Chapter 7 of the Kennedy Safety Practices Handbook state that current approved adhesive
tape and plastic film lists are on the Kennedy Materials Science Division Intranet. However, the
USA M&P engineer specialist also referred us to (1) Appendix C of NSTS 08242, (2) Material
Use Permit and safety variance files, and (3) MAPTIS when selecting PFA’s for use in




                                                  44
                                                                                          Appendix G

Kennedy's Space Shuttle processing facilities. As a result, there were at least five sources used for
identifying approved materials. On February 5, 2001, we presented this information to the
Kennedy Director of Shuttle Processing. When we subsequently met with the Kennedy Director of
Shuttle Processing on February 15, 2001, he was unable to identify a single approved list of PFA’s
approved for use in and around the orbiter vehicles. It was not until more that 4 months later that
management concluded that NSTS 08242 was the approved list of PFA’s approved for use in and
around the orbiter vehicles. Kennedy should approve one centralized source of materials for use in
and around the orbiter vehicles, with reference to all associated testing records to ensure that the
materials are used safely.

Management’s Comment. We recognize that gaining access to PFA materials evaluations and/or
test results performed at other NASA Centers is not always timely.

15. OIG Comment. Management’s statement is misleading. Of the 30 materials listed in
Appendix E of the report, testing records for 16 of the materials did not exist. Further, the testing
records that were available for the remaining 14 materials did not clearly show the results of the test.

Management’s Comment. When PFA material is proposed to be used and is not authorized by
NSTS 08242, a Material Usage Permit must be processed, and if the required test data cannot be
attained to support the Material Usage Permit assessment, the PFA material is sent to the Kennedy
Material Science Lab for required tests.

16. OIG Comment. Our audit work does not support management’s statement. The USA M&P
engineer specialist told us during the audit that PFA’s are tested only when he determines that
hazards may be expected in the use of the PFA. Furthermore, we identified at least one material
(RB0159-002 pressure sensitive tape) not authorized by NSTS 08242 for which no test records
existed. The USA M&P engineer specialist processed Material Use Permit 94-007, authorizing
permanent use of this material. The USA M&P engineer specialist approved the Material Use
Permit even though the Kennedy Materials Science Lab never tested the material. In addition, we
could not locate test records from any other NASA Center or test facility for this material.

Management’s Comment. Appendix E has been reviewed, and all 30 items were verified to be
authorized for use by NSTS 08242.

17. OIG Comment. There is no support for this statement because management has not
presented evidence of materials testing results for the materials from any NASA Center or test
facility.




                                                   45
                          Appendix H. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Acting Associate Administrator for Biological and Physical Science
X/Director, Office of Security Management and Safeguards
Y/Associate Administrator for Earth Science
Z/Acting Associate Administrator for Policy and Plans

NASA Advisory Officials

Chair, NASA Aerospace Safety Advisory Panel

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center




                                               46
                                                                                 Appendix H

NASA Centers (Cont.)

Acting Director, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office Professional
Staff Member, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and Intergovernmental
 Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                                47
                   NASA Assistant Inspector General for Audits
                                Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of our
reports. We wish to make our reports responsive to our customers’ interests, consistent with our
statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Acting Assistant Inspector
General for Audits; NASA Headquarters, Code W, Washington, DC 20546-0001.

Report Title: Controls Over the Use of Plastic Films, Foams, and Adhesive Tapes In and
Around the Space Shuttle Orbiter Vehicles

Report Number:                                    Report Date:

Circle the appropriate rating for the following statements.

                                              Strongly                                Strongly
                                               Agree     Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and            5        4       3          2           1      N/A

   logically organized.
2. The report was concise and to the             5         4        3         2          1       N/A

   point.
3. We effectively communicated the audit         5         4        3         2          1       N/A

   objectives, scope, and methodology.
4. The report contained sufficient               5         4        3         2          1       N/A

   information to support the finding(s) in
   a balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

         Congressional Staff                        Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

  Yes: ______                                   No: ______
  Name: ________________________
  Telephone: _____________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Kevin J. Carson, Deputy Assistant Inspector General for Audits

Karl M. Allen, Audit Program Manager

Rebecca L. Andrade, Auditor

Nancy C. Cipolla, Report Process Manager
